No. 21-xxxxx
IN THE

SUPREME COURT OF THE UNITED STATES
Davendra Anand - PETITIONER [Pro Se]
vs.
Commissioner of Internal Revenue - RESPONDENT
On Petition for a Writ of Certiorari to The United
States Court of Appeals for the Second Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h). I, Davendra Anand, Pro Se,
certify that the accompanying Petition for a Writ of Certiorari contains 2,626
words, excluding the parts of the petition that are exempted by Supreme Court
Rule 33.1(d).
Submitted on May 3, 2021
s/s Davendra Anand
Davendra Anand, Pro Se
58 Firehouse Road, Trumbull, CT 06611
E-Mail: danand55@gmail.com
Telephone: 203-895-5899

l

